<html>
<title></title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


.                                     
                         [H.A.S.C. No. 115-93]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2019

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                SUBCOMMITTEE ON STRATEGIC FORCES HEARING

                                   ON

                    FISCAL YEAR 2019 BUDGET REQUEST

                     FOR NUCLEAR FORCES AND ATOMIC

                       ENERGY DEFENSE ACTIVITIES

                               __________

                              HEARING HELD
                             MARCH 22, 2018


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-563                      WASHINGTON : 2019                     
          

                                     
  


                    SUBCOMMITTEE ON STRATEGIC FORCES

                     MIKE ROGERS, Alabama, Chairman

DOUG LAMBORN, Colorado               JIM COOPER, Tennessee
DUNCAN HUNTER, California            SUSAN A. DAVIS, California
MO BROOKS, Alabama                   RICK LARSEN, Washington
JIM BRIDENSTINE, Oklahoma            JOHN GARAMENDI, California
MICHAEL R. TURNER, Ohio              BETO O'ROURKE, Texas
MIKE COFFMAN, Colorado               DONALD NORCROSS, New Jersey
BRADLEY BYRNE, Alabama               COLLEEN HANABUSA, Hawaii
SAM GRAVES, Missouri                 RO KHANNA, California
JODY B. HICE, Georgia
                 Drew Walter, Professional Staff Member
                         Leonor Tomero, Counsel
                         Michael Gancio, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Cooper, Hon. Jim, a Representative from Tennessee, Ranking 
  Member, Subcommittee on Strategic Forces.......................     2
Rogers, Hon. Mike, a Representative from Alabama, Chairman, 
  Subcommittee on Strategic Forces...............................     1

                               WITNESSES

Benedict, VADM Terry, USN, Director, Navy Strategic Systems 
  Programs.......................................................     5
Gordon-Hagerty, Hon. Lisa E., Administrator, National Nuclear 
  Security Administration........................................     6
Owendoff, James, Principal Deputy Assistant Secretary for 
  Environmental Management, Department of Energy.................     7
Rand, Gen Robin, USAF, Commander, Air Force Global Strike Command     4
Rood, Hon. John C., Under Secretary of Defense for Policy, 
  Department of Defense..........................................     3

                                APPENDIX

Prepared Statements:

    Benedict, VADM Terry.........................................    54
    Gordon-Hagerty, Hon. Lisa E..................................    64
    Owendoff, James..............................................    77
    Rand, Gen Robin..............................................    34
    Rogers, Hon. Mike............................................    27
    Rood, Hon. John C............................................    29

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
 
 
 FISCAL YEAR 2019 BUDGET REQUEST FOR NUCLEAR FORCES AND ATOMIC ENERGY 
                           DEFENSE ACTIVITIES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Subcommittee on Strategic Forces,
                          Washington, DC, Thursday, March 22, 2018.
    The subcommittee met, pursuant to call, at 9:00 a.m., in 
room 2118, Rayburn House Office Building, Hon. Mike Rogers 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MIKE ROGERS, A REPRESENTATIVE FROM 
      ALABAMA, CHAIRMAN, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Rogers. Good morning. The subcommittee will come to 
order.
    I want to welcome you to our hearing, ``The Fiscal Year 
2019 Budget Request for Nuclear Forces and Atomic Energy 
Defense Activities.'' I want to thank the witnesses for being 
here today and for your service to our Nation and for the time 
it took to prepare for this. I know it takes a lot of time and 
energy, and we appreciate it. It is very helpful to us.
    As you know, we have a full witness panel today. Due to the 
limited time, we are going to cover the waterfront on DOD's 
[Department of Defense's] nuclear forces and all of the 
defense-related activities in the Department of Energy.
    Our witnesses are the Honorable John Rood, Under Secretary 
of Defense for Policy; General Robin Rand, Commander, Air Force 
Global Strike Command; Vice Admiral Terry Benedict, Director, 
Navy Strategic Systems Programs; Honorable Lisa Gordon-Hagerty, 
NNSA [National Nuclear Security Administration] Administrator 
under the Secretary of Energy; and James Owendoff, Principal 
Deputy Assistant Secretary of Energy for the Environmental 
Management.
    Two months ago, the Armed Services Committee held a hearing 
in this room with Secretary of Defense Mattis on the National 
Defense Strategy and Nuclear Posture Review [NPR]. The 
Secretary gave us a sobering assessment of the nuclear threat 
environment that reflected that, quote, ``we must look reality 
in the eye and see the world as it is, not as we wish it to 
be,'' close quote.
    I am pleased to see that the 2018 NPR does exactly that. 
But back in 2010, the Obama administration's NPR said, with 
misplaced hope, that, quote, ``Russia is not an enemy and is 
increasingly a partner,'' close quote.
    Anyone who watches the news today knows that this is not 
the case, if it ever was.
    We were reminded of the reality just 3 weeks ago when 
President Trump--or President Putin announced that Russia is 
developing and fielding four new and horrific nuclear weapons. 
This includes a nuclear-powered cruise missile of essentially 
infinite range and a nuclear-powered underwater drone with an 
enormous salt-the-Earth nuclear payload.
    These Russian nuclear weapons have been in development for 
decades. Former Secretary of Defense Carter has pointed out 
that a nuclear arms race between the U.S. and Russia has been 
going on, quote, ``for two decades now, but the U.S. has not 
been running the race,'' close quote.
    Despite U.S. efforts to reduce both the number of nuclear 
weapons and their role in the defense strategy, Russia, China, 
and North Korea have gone in the opposite direction. Despite 
the U.S. policy to refrain from developing new nuclear 
capabilities, these countries are spiraling the other way.
    Secretary Mattis' new NPR takes stock of the situation and 
prudently endorses the nuclear triad modernization program 
initiated by President Obama. This will recapitalize our 
existing systems, an effort that was put off for far too long.
    The NPR also wisely proposes two capabilities to supplement 
the program of record. These capabilities will ensure 
deterrence of adversaries and assurance of allies remains 
strong. They deserve full support of this committee and 
Congress.
    Finally, let me highlight three issues that this committee 
has spent considerable time on and that I am happy to see 
discussed at length in the NPR: Number one, the nuclear 
command, control, and communications, or NC3, system, which is 
old but reliable and must be modernized; number two, the 
infrastructure with NNSA that is literally falling apart and 
needs considerable attention and resources; and, number three, 
the people in uniform and civilian clothes across the DOD and 
NNSA that form the backbone of our deterrent.
    Nuclear deterrence is our number one priority defense 
mission. Forces, warheads, NC3, people, and infrastructure: it 
is all part of the deterrent. It is time to buckle down and get 
after all of it.
    Thank you again to our witnesses. I look forward to a 
discussion.
    With that, let me turn to our ranking member, my friend and 
colleague, for any statement that he may have.
    [The prepared statement of Mr. Rogers can be found in the 
Appendix on page 27.]

STATEMENT OF HON. JIM COOPER, A REPRESENTATIVE FROM TENNESSEE, 
        RANKING MEMBER, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Cooper. Thank you so much, Mr. Chairman. And thanks to 
each one of the witnesses.
    I can't help but note that today, on the day we vote on the 
fiscal year 2018 appropriations, we are discussing fiscal year 
2019, proving, once again, that the authorization committees 
are almost lapping the appropriators.
    There could not be a more complex or consequential subject 
than the one that each one of you will be addressing today. It 
is vitally important that we get it right because, literally, 
the survival of our Nation, and of the planet, is at stake if 
we get it wrong. So I thank each one of you for your excellence 
and diligence.
    I note, with appreciation, there is some good news in all 
this with increased budgets and performance, like with NNSA 
having had the number of programs come in under budget since 
2011--that is excellent--on page 11 of your testimony. We need 
to see lots more of that because taxpayers, even in this vital 
area, want to see value received for their dollars.
    So I thank the witnesses, and I look forward to the 
questions. Most of mine will be in closed session.
    Mr. Rogers. I thank the gentleman.
    We will ask each of the witnesses, if you could--we are 
going to be called for votes. We think it is going to be 
disruptive. So if you could summarize your opening statement in 
3 minutes. Your full statement will be accepted into the 
record, without objection.
    Before we get started, I do want to take note of the fact 
that we have, as a committee, really enjoyed having General 
Robin Rand and Admiral Terry Benedict before this committee on 
many occasions. They are both real tributes to this country, 
and we thank you for your service. I believe this is going to 
be your last appearance before us, but just know we appreciate 
you, and we won't be too tough on you today.
    But, anyway, let's go to opening statements. We will start 
with Under Secretary Rood. You are recognized for 3 minutes.

STATEMENT OF HON. JOHN C. ROOD, UNDER SECRETARY OF DEFENSE FOR 
                 POLICY, DEPARTMENT OF DEFENSE

    Secretary Rood. Thank you, Mr. Chairman.
    Chairman Rogers, Ranking Member Cooper, and members of the 
committee, thank you for the opportunity to testify before you 
today on the President's fiscal year 2019 budget request.
    Today, the United States faces an increasingly complex 
global security environment in which the central challenge to 
our prosperity and security is the reemergence of long-term 
strategic competition by revisionist powers in China and 
Russia. While they pose separate challenges with unique 
attributes, both China and Russia seek to reshape the world 
order and change territorial borders. Consequently, they pose 
increasing security threats to us, our allies, and partners.
    Long-term competition with China and Russia requires 
increased U.S. and allied military investment because of the 
magnitude of the threats they pose today and the potential that 
these threats will increase in the future. We must also 
simultaneously strengthen our efforts to deter and counter the 
clear and present dangers posed by rogue regimes such as North 
Korea and Iran.
    The U.S. military remains the strongest in the world. 
However, our advantages are eroding as potential adversaries 
modernize and build up their conventional and nuclear forces. 
They now field a broad arsenal of advanced missiles, including 
variants that can reach the American homeland. As the chairman 
noted, earlier this month, Russian President Putin claimed 
publicly that Russia now possesses unprecedented new types of 
nuclear forces with which to target the United States and our 
allies.
    Our task at the Defense Department is to ensure that the 
U.S. military advantages endure and, in combination with our 
other elements of national power, we are fully able to meet the 
increasing challenges to our national security. Weakness 
invites challenge and provocation.
    The 2018 Nuclear Posture Review reflects DOD's strategic 
priority to maintain a safe, secure, survivable, and effective 
nuclear deterrent.
    The logic of the NPR was best articulated by Secretary 
Mattis who said, and I quote, ``This review rests on a bedrock 
truth: nuclear weapons have and will continue to play a 
critical role in deterring nuclear attack and in preventing 
large-scale conventional warfare between nuclear-armed states 
for the foreseeable future. U.S. nuclear weapons not only 
defend our allies against conventional and nuclear threats, 
they also help them avoid the need to develop their own nuclear 
arsenals. This, in turn, furthers global security,'' end quote.
    The 2018 NPR confirms the findings of all previous NPRs 
that the diverse capabilities of the nuclear triad provide the 
flexibility and resilience needed for deterrence. 
Unfortunately, each leg of the triad is now operating far 
beyond its planned service life. Consequently, we must not 
delay the recapitalization of the triad started by the previous 
administration.
    I would note that the U.S. commitment to nonproliferation 
and arms control remains strong and is noted in the NPR. The 
United States remains committed to all of its obligations under 
the Nuclear Non-Proliferation Treaty, including Article VI.
    Mr. Chairman, let me conclude by stating that, in an 
increasingly complex and threatening security environment, DOD 
must sustain the capabilities needed to deter and defend 
against attacks on our homeland. Along with our allies and 
partners, we must ensure that we have the capabilities needed 
now and in the future to protect our people and the freedoms we 
so cherish and are able to engage potential adversaries 
diplomatically from a position of strength.
    Thank you again for the opportunity to testify. I urge the 
committee to support the President's fiscal year 2019 budget 
request.
    [The prepared statement of Secretary Rood can be found in 
the Appendix on page 29.]
    Mr. Rogers. Thank you. The gentleman yields back.
    The Chair now recognizes General Rand for 3 minutes.

STATEMENT OF GEN ROBIN RAND, USAF, COMMANDER, AIR FORCE GLOBAL 
                         STRIKE COMMAND

    General Rand. Good morning, Chairman Rogers, Ranking Member 
Cooper, and distinguished members of the subcommittee. Thank 
you for allowing me to appear before you today to represent the 
men and women of Air Force Global Strike Command.
    As I conclude my third year as Commander of Air Force 
Global Strike, I have four fundamental focus areas: First, the 
fight tonight; next, the fight in 2030; the development of our 
airmen; and the care and feeding of our families.
    I will highlight two of these areas in these opening 
comments.
    In our fight tonight, 2017 was an important year. As we sit 
here this morning, our airmen are gainfully employed in the 
missile fields in five States--Colorado, Nebraska, Wyoming, 
Montana, and North Dakota--pulling intercontinental ballistic 
missile alert 24/7. At the same time, we have airmen deployed 
in the Middle East, supporting CENTCOM [U.S. Central Command] 
and AFRICOM [U.S. Africa Command], fighting violent extremists. 
Airmen are deterring our adversaries and assuring our partners 
in the EUCOM [U.S. European Command] and PACOM [U.S. Pacific 
Command] AOR [area of responsibility], and airmen are 
supporting counter-narcotic operations in SOUTHCOM [U.S. 
Southern Command] while we are always postured to support 
General Hyten's USSTRATCOM's [U.S. Strategic Command's] 
operational plan 81-X.
    At the direction of the Commander of USSTRATCOM, in 
September 2017, we reorganized to establish one line of 
authority for USSTRATCOM'S air components under a single four-
star commander. This reorganization has established clear lines 
of authority, simplifying outdated command structure for our 
bombers and our ICBM [intercontinental ballistic missile] 
forces.
    My position is now dual-hatted as the Commander of Air 
Force's Strategic Air and Joint Forces Component Commander and 
the Commander of Air Force Global Strike.
    The recently activated Joint-Global Strike Operations 
Center, headquartered at Barksdale Air Force Base, enables us 
to focus on operational deterrence and global strike missions, 
while headquarters Global Strike Command focuses on the 
organized train-and-equip duties.
    Equally important as our ability to fight tonight, is our 
ability to fight in 2030. The key to Global Strike Command's 
continued success will remain on our ability to modernize, 
sustain, and recapitalize our force. I am happy to report today 
that we are on a good path to moving forward.
    I look forward to answering your questions and providing 
input on the Ground Based Strategic Deterrent; the Long Range 
Stand-Off weapon; the B-21 Raider; the UH-1N helicopter 
replacement; infrastructure requirements; nuclear command, 
control, and communications systems; and other programs within 
the command.
    Modernization of our nuclear force is critical. It is 
absolutely critical.
    Mr. Chairman and subcommittee members, I want to thank you 
for your dedication to our great Nation and the opportunity to 
appear before the committee to highlight the important mission 
of Air Force Global Strike Command. Thank you.
    [The prepared statement of General Rand can be found in the 
Appendix on page 34.]
    Mr. Rogers. I thank you, General Rand.
    Admiral Benedict, you are recognized for 3 minutes.

STATEMENT OF VADM TERRY BENEDICT, USN, DIRECTOR, NAVY STRATEGIC 
                        SYSTEMS PROGRAMS

    Admiral Benedict. Thank you, sir.
    Chairman Rogers, Ranking Member Cooper, and distinguished 
members of the committee, thank you for the opportunity to be 
here today and thank you for your continued support of the 
Navy's deterrence mission.
    It has been my greatest privilege to represent the men and 
women of SSP [Strategic Systems Programs] for the last 8 years. 
My goal, as the director, has been to ensure that they are 
properly positioned to execute the mission with the same level 
of success today and tomorrow as they have done since our 
program's inception in 1955.
    SSP is currently extending the Trident II D5 strategic 
weapon system to match the Ohio-class service life and to serve 
as the initial weapon system on the Columbia class.
    I will summarize by saying all of our life extension 
programs remain on track and on budget. Our life extension 
efforts will ensure an effective and credible sea-based 
strategic deterrent on both the Ohio and the Columbia class 
until the 2040s.
    The Navy is also taking steps to ensure a credible weapon 
system is available beyond 2040. In fact, the Nuclear Posture 
Review directs the Navy to, quote, ``begin studies in 2020 to 
define a cost-effective, credible, and effective SLBM, sea-
launched ballistic missile, that we can deploy throughout the 
service life of the Columbia SSBN [ballistic missile submarine] 
through the 2080s,'' unquote.
    In addition to our modernization efforts, our budget 
request supports the results of the 2018 Nuclear Posture 
Review. In particular, our budget request includes funding to 
begin modifying a small number of warheads to provide a low-
yield option. This near-term capability is being accomplished 
in partnerships with the Department of Energy and my 
counterpart here, Administrator Gordon-Hagerty at the NNSA. It 
will not increase the overall number of deployed ballistic 
warheads and will, in fact, bolster our deterrence posture.
    Thank you for the opportunity to testify, and I look 
forward to additional questions.
    [The prepared statement of Admiral Benedict can be found in 
the Appendix on page 54.]
    Mr. Rogers. Thank you, Admiral.
    Ms. Gordon-Hagerty, you are recognized for 3 minutes.

   STATEMENT OF HON. LISA E. GORDON-HAGERTY, ADMINISTRATOR, 
            NATIONAL NUCLEAR SECURITY ADMINISTRATION

    Ms. Gordon-Hagerty. Chairman Rogers, Ranking Member Cooper, 
and distinguished members of the subcommittee, thank you for 
the opportunity to present the President's fiscal year 2019 
budget request for the Department of Energy's National Nuclear 
Security Administration. It is a privilege to appear before you 
today representing the extraordinary men and women of the DOE 
[Department of Energy] NNSA and the vital roles we play in 
executing our national security missions.
    Since being sworn in exactly 4 weeks ago today, I have had 
the opportunity to receive in-depth briefings on NNSA's 
programs and projects. I still have a great deal more to learn, 
but what I have seen so far has been impressive.
    NNSA has shown steady progress with the support of this 
subcommittee and Congress. For example, infrastructure 
modernization, flight testing of the B61-12, removals of highly 
enriched uranium from Ghana and Kazakhstan, and commissioning 
of a new class of nuclear-powered aircraft carrier. These are 
but a few examples of how NNSA has lent its world-class 
expertise to keeping our Nation safe and secure. But there is 
much more to be done to meet the challenges posed by the 
current geopolitical environment.
    The President's fiscal year 2019 budget request for NNSA is 
$15.1 billion, providing the resources required to help ensure 
we are able to protect and keep our Nation, allies, and 
partners safe. This request also moves us forward to a 
deterrent that is modern, robust, flexible, resilient, ready, 
and appropriately tailored to meet current and future 
uncertainties, as outlined in the 2018 Nuclear Posture Review.
    The fiscal year 2019 budget clearly demonstrates the 
administration's strong support for NNSA and our three enduring 
missions: maintaining the safety, security, and reliability of 
the U.S. nuclear weapon stockpile; reducing the threat of 
nuclear proliferation and nuclear terrorism around the world; 
and providing nuclear propulsion for the U.S. Navy's fleet of 
aircraft carriers and submarines. These critically important 
missions are executed in lockstep alignment with our 
interagency partners, including the Department of Defense, with 
whom I am privileged to testify before you today.
    NNSA's fiscal year 2019 budget request for the weapons 
activities account as $11 billion, an increase of 7.6 percent 
over the fiscal year 2018 request. This funding supports the 
Nation's current and future defense posture, including 
infrastructure across the enterprise.
    With the subcommittee's support, our fiscal year 2018 NDAA 
[National Defense Authorization Act]--under the NDAA, we have 
provided additional flexibility to our infrastructure 
challenges by increasing minor construction thresholds to $20 
million. Our budget request also includes $1.9 billion for the 
defense nuclear nonproliferation account, a 3.9 percent 
increase. Finally, the budget request for Naval Reactors is 
$1.8 billion, a 20.9 percent increase above the fiscal year 
2018 request.
    The NNSA's fiscal year 2019 budget request is a result of a 
disciplined process to prioritize funding for validated 
requirements as designated by this administration. And it sets 
forth the foundation to implement the policies of the Nuclear 
Posture Review and the National Security Strategy.
    Thank you for your continued strong support and the 
opportunity to testify before you today. I look forward to 
answering any questions you may have.
    [The prepared statement of Ms. Gordon-Hagerty can be found 
in the Appendix on page 64.]
    Mr. Rogers. Thank you.
    Mr. Owendoff, you are recognized for 3 minutes.

    STATEMENT OF JAMES OWENDOFF, PRINCIPAL DEPUTY ASSISTANT 
  SECRETARY FOR ENVIRONMENTAL MANAGEMENT, DEPARTMENT OF ENERGY

    Mr. Owendoff. Good morning, Chairman Rogers, Ranking Member 
Cooper, and distinguished members of the subcommittee. I am 
pleased to be here today to represent the Department of 
Energy's Office of Environmental Management [EM] and to discuss 
the work we have already successfully accomplished and what we 
plan to accomplish under the President's fiscal year 2019 
budget request.
    The total fiscal year 2019 budget request for the EM 
program is $6.6 billion. Of that, $5.6 billion is for the 
defense environmental cleanup activities. The fiscal year 2019 
request demonstrates the administration's continued commitment 
to the vital mission of EM to address the environmental legacy 
of nuclear weapons production and government-sponsored energy 
research.
    DOE and EM are committed to ensuring the safety of our 
workforce, the public, and the environment. Safety is our top 
priority for the Office of Environmental Management and its 
field sites. It is valued above production, budget, and 
schedule. We are also strongly committed to a workplace where 
all workers--Federal and contractor--are free to speak out, 
voice concerns, or lodge complaints without fear of 
retaliation.
    To continue and further build upon our momentum of 
progress, we have focused on a greater sense of urgency to EM's 
decision-making process. This approach means more emphasis on 
engaging with regulators, stakeholders, and communities in 
making timely decisions which will enhance safety, shorten 
schedules, increase transparency, and reduce costs.
    Going forward, our fiscal year 2019 request will enable us 
to continue making progress on those capabilities necessary to 
tackle some of our longer-term challenges while also enabling 
us to realize concrete accomplishments across the EM program.
    In closing, I am honored to be here today to represent the 
more than 20,000 men and women that carry out the Office of 
Environmental Management mission. Ensuring a safe work 
environment at all of our sites is our highest priority. We are 
committed to achieving our mission in a safe, effective, and 
cost-efficient manner to serve as good stewards of taxpayer 
resources.
    Thank you for the subcommittee's support of the defense 
cleanup program and, again, for the opportunity to appear 
before you today. I look forward to answering your questions.
    [The prepared statement of Mr. Owendoff can be found in the 
Appendix on page 77.]
    Mr. Rogers. I thank all the witnesses for those statements.
    I recognize myself for the first set of questions.
    This will be for Under Secretary Rood and General Rand.
    I understand that the NPR examined a lot of different 
options, and included in that was de-alerting our ICBMs and 
possibly adopting a no-first-use policy.
    The previous administration, at least on two occasions, 
considered those and rejected them. Are you concerned that the 
U.S. may mistakenly launch a nuclear strike, either in a day-
to-day posture or defense crisis, and do you believe we should 
de-alert ICBMs?
    Secretary Rood. Mr. Chairman, we have high confidence in 
our command and control capabilities for our nuclear arsenal. 
They have been the same sort of command and control procedures 
in the system that we have had for quite some time.
    With respect to your question on first use, I would note, 
no U.S. President, since the dawn of the nuclear age, has 
provided an assurance against the first use of nuclear weapons. 
The declaratory policy that you will see in the 2018 NPR is the 
same in this respect as the 2010 NPR, produced during the Obama 
administration, in that it talks about keeping a nuclear 
threshold at a very high level, stating that the United States 
would only contemplate the use of nuclear weapons in extreme 
circumstances.
    Of course, the primary purpose of our nuclear force is 
deterrence. It is our nuclear deterrent force. We are not 
considering de-alerting our ICBMs and other activities like 
that because we don't think it would further those objectives.
    With respect to first use, as I mentioned, it has not been 
the policy of any U.S. President, in part because we want to 
retain some ambiguity around the circumstances in which the 
United States would respond with nuclear weapons or to employ 
them.
    General Rand. Mr. Chairman, I can only add that I would not 
be in favor of de-alerting our nuclear ICBMs. The big feature 
of the ICBMs is its responsiveness. That is one of the features 
of the different legs of the triad, and we would not have that 
responsive capability if we de-alerted.
    Mr. Rogers. Well, I just want everybody to remember: Our 
allies were shaken when this was openly discussed in the past, 
and we don't need to be concerning them again with these kind 
of discussions.
    Administrator Gordon-Hagerty, with NNSA currently with a 
projected workload for weapons programs that is very heavy, 
some folks have expressed concern that the NNSA's enterprise 
cannot successfully execute the additional work required by the 
NPR, namely the two supplemental capabilities of, one, a near-
term modification to the W-76 to provide a lower yield option, 
and, two, a longer term effort to develop a sea-launched cruise 
missile.
    Your predecessor, General Klotz, said in an interview on 
his way out the door, quote: ``The other great risk in the life 
extension programs is we have never done more than one life 
extension program at a time since the end of the Cold War. We 
are now doing essentially four. The point is we are working 
pretty much at full capacity,'' close quote.
    What do you make of these comments? Do you believe the NNSA 
enterprise has the capacity and the capability to do additions 
to these supplemental capabilities without risking the current 
warhead programs, and do you think the men and women in your 
enterprise can get this done?
    Ms. Gordon-Hagerty. Mr. Chairman, yes, I do believe we can 
get it done. And, in fact, we are working right now, as General 
Klotz correctly stated, essentially four LEPs [life extension 
programs], the three LEPs and the one major Alt [alteration].
    We are not running at capacity. In fact, we are planning 
for a projected--the two additional projected opportunities. In 
fact, we are, as you well know, are working the W76-1 process 
right now, the LEP, and we are already making plans of moving 
as far forward as we can to support the future low-yield 
ballistic missile requirement as outlined in the Nuclear 
Posture Review. That, of course, we are waiting for authority 
and approval from the Nuclear Weapons Council to proceed on 
that. And, of course, I am a member of the Nuclear Weapons 
Council. So we will make sure that the schedule supports all of 
those activities.
    Our biggest concern with our workload, however, is people 
and the cumbersome clearance process that it takes. We need to 
train and equip personnel in the workforce in order to execute 
these missions. It is a full mission workload for us, but we 
believe we have the capabilities and the capacity to do that. 
And with the continued support of this subcommittee and the 
full committee, we believe we can do so.
    It is also predicated, of course, on our decades-long 
future modernization and infrastructure strategy that we have. 
That is also predicated on predictable and stable funding.
    Mr. Rogers. We want to work with you to help you on your 
deferred maintenance problem as well because you are going to 
have a hard time keeping those people if we don't deal with 
that--or recruiting new people.
    Ms. Gordon-Hagerty. I concur. Thank you.
    Mr. Rogers. With that, I yield to the ranking member for 
any questions he may have.
    Mr. Cooper. Thank you, Mr. Chairman.
    As I told Mr. Owendoff before the hearing, I appreciated 
the vividness of your testimony in helping us understand the 
opportunities for cleanup and the accomplishments that have 
already occurred.
    Administrator Gordon-Hagerty, several years ago, I referred 
to the MOX [mixed oxide] program in South Carolina as a zombie 
earmark. And I know that you are new to your job, but I would 
hope that you and the Department of Energy would have a 
proposed termination date for that program in the relatively 
near future now that Congress has repeatedly given you the 
green light.
    It is my understanding in today's omnibus appropriations 
bill, there will be no obstacles to terminating the program. So 
I hope that you will be able to make that a priority in your 
term as Administrator.
    Admiral Benedict, General Rand, I would like to echo 
Chairman Rogers' praise for you as individuals and for your 
excellent careers and service. We will miss your testimony. I 
hope you are adequately warning your replacements what to 
expect from the subcommittee.
    The Nuclear Posture Review suggests several modifications 
to current status and has, I think, special implications for 
the Navy to have a low-yield D5, to have cruise missiles with 
nuclear options.
    So, Admiral Benedict, in your valedictory public comments 
here, could you tell me what that would do to change the 
defense posture of the Navy?
    Admiral Benedict. Thank you, Mr. Cooper.
    With regards to the low yield, if I may, we could very 
quickly get in a classified regime there. I ask that I be able 
to answer most of your specific questions in the classified 
session.
    I would tell you that we are beginning planning on the low-
yield concept for the 76. That is, from our perspective, well 
on its way to support the direction out of the NPR.
    With regards to the sea-launched cruise missile, we will 
begin that effort in fiscal year 2019 with the standard 
analysis of alternatives on what that would actually look like, 
what the requirements would be for that type of a weapon, and 
where it would be based from sea, either surface or submarine. 
That work will begin in fiscal year 2019, per the direction of 
the NPR. The Navy, today, under the direction of the CNO [Chief 
of Naval Operations] and the Assistant Secretary for Research, 
Development and Acquisition, are beginning that planning 
throughout the Navy, so we will be well situated to begin in 
fiscal year 2019.
    Mr. Rogers. I thank the gentleman.
    The Chair now recognizes the gentleman from Georgia, Mr. 
Hice.
    Mr. Hice. Thank you, Mr. Chairman.
    Administrator Gordon-Hagerty, let me ask you, are you 
concerned about the increasing drone activity at NNSA labs, 
plants, and sites?
    Ms. Gordon-Hagerty. Yes, Representative Hice. We have seen 
increased activity in UAS [unmanned aircraft system] drone 
activities at all of our labs, plants, and sites, and we are 
concerned about that. But thanks to this Congress, and in 
particular this subcommittee, we now have the resources to look 
at and be able to put together programs that will address these 
issues at our locations where special nuclear material is 
located.
    We are in the process of down-selecting from two pilot 
projects that we have ongoing right now so we can address this 
better at our sites. Shortly, we will be putting in counter-UAS 
capabilities at our plants, labs, and sites where we have 
special nuclear material, Cat I facilities.
    Mr. Hice. So the counter-UAS authority that has been 
granted, has that been implemented?
    Ms. Gordon-Hagerty. We are in the process of down-selecting 
capabilities to do so, so we can execute those authorities.
    Mr. Hice. Do you have a timeframe on when you think that 
may be?
    Ms. Gordon-Hagerty. In the very near term. I would be happy 
to bring the team together and provide you with a more detailed 
briefing about what our down-select activities in our pilot 
project is showing right now.
    Mr. Hice. Okay. I would appreciate that.
    When will the engineering analysis and workforce analysis 
for plutonium pit production be complete?
    Ms. Gordon-Hagerty. We are undergoing the final draft 
review of the engineering analysis as well as the workforce 
analysis for our planned path forward for pit production for 
the 31 to 80 pits, if you will.
    Right now, we have an enduring mission, and, thanks to this 
subcommittee and the appropriations committees, we are putting 
modernization plans in place for the PF-4, where we will have 
our existing and enduring pit production capabilities at Los 
Alamos, Los Alamos being the plutonium center of excellence for 
our operations. That will be our enduring 30 pits per year 
requirements.
    As far as the engineering analysis is concerned, in the 
next several weeks, Under Secretary Lord and I will be 
receiving our final briefings on the final draft product, at 
which time I will take that information to the Deputy 
Secretary, who is the responsible party for selecting the best 
location for the engineering or for the future pit production 
requirements. We will do that within the timeframe so that 
Under Secretary Lord, as the chairman of the Nuclear Weapons 
Council, can submit her report to Congress by May 11.
    Mr. Hice. I know the Savannah River Site is in 
consideration with that. I will certainly give a plug in that 
direction. I appreciate that consideration.
    So will Congress be kept up to speed on all of this?
    Ms. Gordon-Hagerty. Yes. As soon as we are able to, we will 
make provisions to brief Members of Congress and their staff.
    Mr. Hice. Okay. Thank you very much.
    Mr. Chairman, I yield back.
    Mr. Rogers. The gentleman yields back.
    The Chair now recognizes the gentleman from California, Mr. 
Garamendi, for 5 minutes.
    Mr. Garamendi. Did you say 55?
    Mr. Rogers. No.
    Mr. Garamendi. I want to go to a recent incident in which 
it has been reported that Russia has hacked into our critical 
infrastructure systems--electrical grids, power plants, et 
cetera--and then refer you to page 21 of the Nuclear Posture 
Review, the last paragraph: Given the potential of significant 
nonnuclear strategic attacks, the United States reserves the 
right to make any adjustment in the assurance that may be 
warranted by the evolution and proliferation of nonnuclear 
strategic attack technologies and U.S. capabilities to counter 
that threat.
    Does a cyberattack on our power grid rise to the occasion 
of using a nuclear weapon in response?
    Mr. Rood.
    Secretary Rood. Congressman, the threshold for U.S. nuclear 
use has been and will remain incredibly high.
    As you quoted from on page 21 of the Nuclear Posture 
Review, you will note the first sentence of our declaratory 
policy is the United States would only consider the employment 
of nuclear weapons in extreme circumstances to defend the vital 
interests of the United States, its allies, and partners.
    Mr. Garamendi. I did read that.
    So is the shutdown of the American power grid an extreme 
circumstance that would warrant the use of a nuclear weapon?
    Secretary Rood. In the declaratory process, that is one of 
the things that we would take into account. And, remember, the 
key word being ``consider'' in extreme circumstances.
    It is really the context in which those type of attacks 
could occur. There is no automaticity. In our response, we 
would consider that.
    So, for instance, to your hypothetical, if an attack shut 
down the electricity grid in the United States and it was 
accompanied by other activities, that would be one of the 
things we would look at. Are we in a high-threat condition with 
Russia? Are there other forms of conventional attack underway? 
What is the context in which that is occurring?
    There is nothing in our policy that would automatically 
require a response, but we would maintain the ambiguity around 
exactly how we would respond in order to deter attacks on the 
United States, and we would consider the context in which 
activities were occurring.
    Mr. Garamendi. Ms. Gordon-Hagerty, in answer to the 
previous question, you indicated that you intend to continue to 
build out the PF-4 facility at Los Alamos.
    Have you made a decision on your AOA [analysis of 
alternatives] as to the ultimate production location for the 
plutonium pits?
    Ms. Gordon-Hagerty. Representative Garamendi, the 
discussion that we were having about the engineering analysis, 
which is the follow-on to the analysis of alternatives, we have 
down-selected two locations where we are now undergoing the 
final assessment to make a recommendation to the Deputy 
Secretary and then, ultimately, to the Nuclear Weapons Council. 
And that should be completed on or before--the recommendation 
to Congress should be made on or before May 11, so it is very 
near term.
    Mr. Garamendi. And so it appeared to me that, in answering 
the previous question, that you may have made a decision by the 
allocation of substantial sums into the Los Alamos facility, 
and you are saying that is not the case. It is still an open 
question.
    Ms. Gordon-Hagerty. Well, this is a twofold process. We 
will continue to fund and support the operations at PF-4, which 
is where our enduring plutonium pit production capabilities 
will remain for the foreseeable future for those 1 through 30, 
if you will, pits. And then building out on that, the strategy, 
as required by the Nuclear Weapons Council, is to produce up to 
80 pits by 2030. That is the parameters under which we are 
operating and finalizing the engineering analysis.
    Mr. Garamendi. I appreciate your answer. There is one 
additional question I will save, but I will state the question 
here: Why do you need 80 pits? In the classified setting, I 
will ask that question.
    Ms. Gordon-Hagerty. Okay. Thank you.
    Mr. Garamendi. I yield back.
    Mr. Rogers. I thank the gentleman.
    The Chair now recognizes the gentleman from Alabama, Mr. 
Byrne, for 5 minutes.
    Mr. Byrne. Thank you, Mr. Chairman.
    General Hyten has consistently called for speeding up the 
process for modernizing our major nuclear programs. There is no 
doubt that our nuclear national assets require urgent 
attention.
    General Rand, I know you support that priority. What can we 
do to accelerate the acquisition of the Ground Based Strategic 
Deterrent [GBSD] and the Long Range Stand-Off [LRSO] cruise 
missile programs?
    General Rand. Thank you for the question.
    My first response would be: We need to continue the funding 
for it. We have to continue to be able to stay on time, on 
cost. To do that, we need the dollars. Any delays in this 
funding will certainly result in delayed acquisition of both 
those two critical systems.
    We are in a good place right now with the technology 
maturation and risk-reduction [TMRR] contracts with our two GBS 
contracts with Northrop Grumman and Boeing. It is a 3-year plan 
TMRR cycle. If we stay on track, I think we will be able to 
meet the requirements that we are shooting for, and that is 
2030, to be fielding the GBSD. Delays of the budget would be 
devastating to the program.
    I would say the same thing about our LRSO. We have two 
contracts right now for down-select. We will take the next 2 
years to do this TMRR progress. If we continue to fund 
appropriately, we will stay on time.
    Mr. Byrne. The fiscal year 2019 unfunded priorities list 
includes an additional $69 million and $85 million, 
respectively, for the GBSD and LRSO programs. Can you provide 
more insight, General, on what this additional funding would do 
to help accelerate those programs?
    General Rand. Well, I think one of the things--and to be 
candid with you: I can't give you specifics as probably the 
acquisition community can. Our job in Air Force Global Strike 
is to help define the requirements. I think we have done a good 
job of that.
    I can tell you, any time you are going for these innovative 
programs that the workforce is very important, and I have to 
believe that some of those dollars will be going to building up 
the workforces with both the contractors that we have.
    Mr. Byrne. Admiral, I continue to have my concern--and I 
know you have concerns--about any slippage in the Columbia 
program. We have been talking about that on the committee for a 
long time.
    If you would--you and I have had this discussion before--
bring us up to date. How are we doing on Columbia, and what are 
the risks if we do have slippage in that timeline?
    Admiral Benedict. Sir, we remain on schedule with the 
Columbia. Specifically, I focus on the common missile 
compartment, which is our shared effort with the United 
Kingdom, since both nations have elected to continue the 
Trident II D5 strategic weapon system as the baseline.
    The first four tubes are actually--first four missile 
tubes, excuse me, are actually on what we call the rotisserie 
fixture up at Electric Boat. So we are beginning to receive the 
initial contract allocation of 17 tubes into Electric Boat. And 
we are on track by the end of this summer, early fall, to 
deliver the first missile tube down to what is called the 
Strategic Weapon System Ashore facility down in Florida, where 
I will use it to do environmental testing for the strategic 
weapon system. So we continue to make very good progress on 
that.
    I was in London last week with the United Kingdom. Their 
shipyard in Barrow continues to progress to their schedule and 
their program efforts. They are installing the fixtures the 
same as we have at Electric Boat in order to build the quad 
packs. So we remain on schedule for the submarine force.
    We need 12 boats. I think we have explained at length why 
we need 12 Columbia class for the United States. We need them 
so that we can have the first one on patrol in 2031 in order to 
ensure that we can support General Hyten and the STRATCOM 
requirements for strategic deterrence.
    Mr. Byrne. I thank you for your service. I appreciate your 
testimony and everybody's testimony.
    Mr. Chairman, it is clear to me that one of the things we 
can do to help them is to quit funding them by continuing 
resolutions, number one.
    Number two, we have a very important appropriations bill 
that will be before the House today that I think contains 
funding you all need, to do what you need to do. So for us to 
do what we are supposed to do to help you do what you are 
supposed to do, I hope we have success with that bill today.
    I yield back.
    Mr. Rogers. The gentleman yields back. And I hope it is 
successful, as well.
    The Chair now recognizes the gentleman from Texas, Mr. 
O'Rourke, for 5 minutes.
    Mr. O'Rourke. Thank you, Mr. Chairman.
    General Rand, let me ask you a question about the Long 
Range Stand-Off, LRSO, nuclear cruise missile. Is a there a 
need for a conventional variant?
    General Rand. Sir, the conventional variant that we have 
today is called the Joint Air-to-Surface Missile Extended 
Range, JASSM-ER, vastly improved capability over our 
conventional air-launched cruise missile. That is what we now 
are using--I wouldn't even say to bridge the gap. Frankly, we 
have a need for more long range stand-off conventionally than 
what we already have. And I think we have to balance the budget 
with our requirements, and taking on a new now conventional 
long range stand-off is not something I think should be our 
priority at this time.
    Mr. O'Rourke. Just help me understand. I believe a previous 
NDAA calls for that, and tell me the plans to pursue that and 
develop that.
    General Rand. The NDAA, as I understand it, won't let us 
retire the CALCM, the conventional air-launched cruise missile, 
until we have plans for, which is most unfortunate, because the 
CALCM is not a weapon of choice anymore.
    Again, I would submit--I can't speak to the larger plans--
the Air Force is relying for its conventional long-range strike 
is JASSM-ER. We need to pursue that, and we need to actually 
get more than we have. And I think that is where our effort 
should be versus trying to come up with a new avenue to get a 
conventional long-range standoff.
    Mr. O'Rourke. Thank you.
    Mr. Chairman, I yield back.
    Mr. Rogers. The gentleman yields back.
    The Chair now recognizes the gentleman from Colorado, Mr. 
Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    I am concerned about the command and control and 
communications, given the threats to our satellites.
    Do you all have a growing concern about how that affects 
navigation, targeting, communications, in terms of the triad?
    General Rand. Yes, sir. I will start with that.
    I think that as we evolve in the contested domains that are 
out there--we have undersea, we have sea, we have land, and we 
have air--the two domains that we need to pay particular 
attention is the space domain and certainly the cyber domain. 
Those are very, very important domains to anything that I would 
do in Air Force Global Strike.
    I would tell you that those domains are becoming 
increasingly contested, and absolutely we need to be focused on 
that.
    I won't speak to the specifics because I am not nearly as 
fluent on the topic as my friend, General Jay Raymond, the 
Commander of Air Force Space Command, but this is a huge 
priority for us. I will tell you that cyber and cyber 
protection is a very big priority. Everything that we are doing 
in nuclear command, control, and communications are considering 
how are we going to operate in those two contested domains.
    Admiral Benedict. If I may, I would echo what General Rand 
said, specifically with regards to cyber. And then I would just 
remind this committee that the undersea leg does not rely on 
GPS [Global Positioning System], either for the missile's 
performance or for the submarine's position. We have other 
means to ensure the performance and accuracy of the Trident 
system.
    Mr. Coffman. Russia recently announced a new hypersonic 
missile, and China is pursuing similar capabilities.
    According to General Hyten, quote: ``We do not have any 
defense that could deny the employment of such a weapon against 
us,'' unquote.
    I wonder if you all could comment on that.
    General Rand. Sir, he is accurate in that. What we do have, 
the very premise of deterrence, though, is that we have some 
very strong capabilities ourselves. That is one of the strong 
rationales why we need a B-21 Raider, is to deter their even 
consideration of using a hypersonic weapon against us. That is 
why we need the three strong legs of our triad. That is why we 
need to have the conventional long-range stand-off capabilities 
that we do have. I think that we have to play or consider that 
deterrence is a big part of how we would respond and like why 
they wouldn't want to ever use their hypersonics against us.
    If the question is, ``Should we pursue ways to defend 
against it,'' yes. But we have to balance that on everything 
else that we are trying to do.
    Mr. Coffman. Admiral, how many nuclear ballistic missile 
submarines does Russia currently field or have, and how old are 
they on the average?
    Admiral Benedict. Sir, I am going to have to take a 
specific look up on that and get back to you with the actual 
detailed numbers. I don't have that at my fingertips here, but 
I will take the action.
    Mr. Coffman. Has Russia engaged in large-scale 
modernization of their nuclear triad, including strategic 
bombers or SSBNs?
    Admiral Benedict. Absolutely, sir. And I think that is the 
premise for why we believe so passionately that our life 
extension programs have to continue to pace, both in terms of 
cost and schedule, in order to ensure that we can continue to 
deliver our fundamental aspects of national security, which is 
the nuclear triad.
    Secretary Rood. Congressman, if I could add. The 
intelligence community has produced an estimate showing that 
over the last 20 years the Russians as well as the Chinese have 
engaged in substantial buildup in their strategic nuclear 
capabilities. What we saw President Putin announce is just the 
latest in a discussion of those. During that same period, of 
course, the United States has been going the opposite 
direction.
    And so they have modernized a very large number of 
capabilities, both in the strategic area and the so-called 
nonstrategic nuclear weapons. These are some of the concerns in 
the NPR that led us to propose some of the adjustments in our 
own capabilities.
    Mr. Coffman. Mr. Chairman, I yield back.
    Mr. Rogers. The gentleman yields back.
    The Chair now recognizes the gentleman from Washington, Mr. 
Larsen, for 5 minutes.
    Mr. Larsen. Thank you, Mr. Chairman.
    Mr. Owendoff, I understand no one has asked you any 
questions.
    Looking at the 2018 request and 2019 request, both for the 
Office of River Protection at Hanford and for the operations 
office, the administration is requesting less money in 2019 
compared to 2018.
    Could you try to justify this reduction in the request for 
the work at the Hanford site?
    Mr. Owendoff. Yes, sir. We have completed activities, both 
the vertical pipe unit removal, old burial grounds, and there 
is other work along the Columbia River that we have completed.
    Our focus, though, is for the high-level waste that is in 
the tanks and getting the low-activity waste facility up and 
built. The Secretary has placed a high priority on that, with a 
goal of having it operational by December of 2021, 2 years 
ahead of the consent decree that is in place.
    We believe that, from a priority and a risk standpoint, we 
are addressing the right thing, certainly on the Central 
Plateau, as well as other demolitions across the site.
    Mr. Larsen. Moving on to WTP [Waste Treatment and 
Immobilization Plant Project], do you believe EM can get that 
entire system at Hanford operational by 2039?
    Mr. Owendoff. We are looking at that now, sir. As I 
mentioned, our focus is on the first of the three process 
nuclear facilities.
    We found that it is very difficult to try to move along on 
three at once. But we are analyzing the other two--the high-
level waste and the pre-treatment--and over the next several 
months, we will be having information out that we will be 
certainly sharing with this subcommittee on our approach for 
those two facilities.
    Mr. Larsen. That would be helpful. As you know, this 
predates me being on a committee, and I have been on the 
committee for 18 years. It is described as America's original 
toxic asset, the waste at Hanford and these other places, and 
we haven't really dealt with it.
    We are expecting to learn something from you in the next 
couple of months. Will that include some timelines? Well, going 
back to the WTP. When do you anticipate starting treatment of 
low-level waste?
    Mr. Owendoff. We expect, sir, to have hot operations start 
the end of December 2021. In one way, that seems like a long 
ways off, but there is a lot of work to do. Certainly this will 
be the first time that we have brought up a nuclear facility 
for a low-activity waste class, so there could be problems. 
But, as I say, we and our contractor are moving forward to get 
it done by that date. The Secretary has established a goal for 
us.
    Mr. Larsen. And do you think the dollars in the budget help 
you do that?
    Mr. Owendoff. Yes, sir.
    Mr. Larsen. In the budget you proposed.
    Mr. Owendoff. Yes, sir, we believe that it does. We will 
need to continue certainly that funding level.
    Mr. Larsen. Can you update us on the status of the ongoing 
ventilation problems at tank farms that have sickened workers 
over the past few years?
    Mr. Owendoff. It has been difficult because of the fumes. 
Workers experience different things. They smell different 
things. We have a whole suite of new sensors that we are 
putting out in the tank farm. Some smell ammonia, some smell 
like a sweetness, and so it has been very, very difficult.
    What we have done is, when workers are out there, we put 
them in air packs to ensure that they have a supplemental air 
supply. It slowed the process for retrieving waste in the 
single shell tanks, but our first priority, as I mentioned in 
my opening, is worker safety, so that is what we are 
continuing. We are continuing to look to see if we can find 
what is the source of those fumes and vapors, sir.
    Mr. Larsen. Thank you. Let me yield back.
    I want to apologize to the rest of the panel. I have got a 
million questions for everybody, but this is really kind of the 
only time of the year, once a year, where we get a chance to 
have some conversations on the record in public with the folks 
at EM, so I appreciate the indulgence of the rest of the panel.
    Thank you, Mr. Owendoff.
    I yield back.
    Mr. Rogers. The Chair now recognizes the gentleman from 
Colorado, Mr. Lamborn, for 5 minutes.
    Mr. Lamborn. Thank you.
    I have a short question for Ms. Gordon-Hagerty, and then I 
have another question for Secretary Rood after that.
    Administrator Gordon-Hagerty, I am very concerned that the 
United States no longer enriches uranium for national security 
purposes. Concerning the implications of that and the cost of 
delaying a buildout--I think the previous administration wanted 
a sizable delay--do you share my concerns, and will you 
consider speeding of this vital acquisition process?
    Ms. Gordon-Hagerty. The National Nuclear Security 
Administration has a requirement to produce tritium for our 
national security needs. With that, it is important to us to 
have a domestic enrichment capability.
    We are currently undergoing an analysis, if you will, of 
two different technologies. One of the technologies is much 
more mature than the other. In fact, if you are familiar with 
technical readiness levels, one is at about a 7 or 8; the other 
is at about a 2 or 3. So we are awaiting for that second 
capability to be evaluated more specifically.
    Then once we decide on looking at those two capabilities, 
once they become a technical level 7 or 8, we will then make a 
determination how we are going to proceed with an enrichment 
capability for our United States.
    But, yes, we do agree that we do require a domestic 
enrichment capability.
    Mr. Lamborn. Okay. Thank you. We will work with you on 
that. Thank you.
    And Under Secretary Rood, it is pleasing to me to realize 
that senior-most defense officials from the Obama 
administration have reviewed and support the new Trump national 
posture review.
    I am going to read to you a quote from President Obama's 
Under Secretary of Defense for Policy, Jim Miller, who was the 
principal author of the Obama administration's 2010 NPR 
[Nuclear Posture Review], quote: ``Secretary of Defense Jim 
Mattis' 2018 [Nuclear] Posture Review offers continuity with 
past U.S. policy and plans, including those in the 2010 NPR. It 
deserves broad bipartisan support. Its proposal for a low-yield 
SLBM weapon and a new nuclear tipped sea-launched cruise 
missile are sensible responses to changed security conditions, 
especially Russia and North Korea,'' unquote.
    There are also supportive quotes I won't read for the sake 
of time, but they are from Secretary of Defense Ash Carter and 
former Deputy Secretary of Energy Liz Sherwood-Randall.
    Would you agree with me that that sounds like pretty strong 
support from prior administration officials for the current 
NPR?
    Secretary Rood. I would agree with you, Congressman.
    We are gratified that, for instance, having spoken myself 
to former Secretary of Defense Ash Carter, as well as Jim 
Miller, about this, both went out of their way to praise the 
work that we had done on the Nuclear Posture Review.
    I think you are correct: The programs and policies started 
during the previous administration, during the Obama 
administration, much of that has been continued in the present 
NPR, such as the recapitalization of the nuclear triad. So it 
is gratifying to see that. And I think they see the global 
security environment in similar ways in discussing the topic 
with them. We have just got the hard work ahead of adapting to 
that new environment and adjusting our posture.
    Mr. Lamborn. I am glad you are adapting to a new 
environment.
    Admiral Benedict, there is an issue that is going to be 
discussed when it comes to submarines, our nuclear power--not 
nuclear power but our nuclear warhead submarines and nuclear 
missile submarines. I think there is a thought that having a 
low-yield weapon on one or two missiles would put that 
submarine at risk if it came to the surface, fired a missile, 
and then tried to disappear, and it would be easier to follow.
    If we can talk about it in an open setting, doesn't current 
doctrine allow for that right now for a tiny salvo?
    Admiral Benedict. Yes, sir, you are right. The current 
submarine doctrine does allow for scenarios like you discuss, 
and I would be happy to address more of the detailed specifics 
in the classified session.
    Mr. Lamborn. So going to a small salvo is not a change of 
doctrine or training?
    Admiral Benedict. No, sir, not at all. In fact, it is 
currently practiced from a training perspective in the 
submarine force today.
    Mr. Lamborn. Okay. Thank you very much.
    Mr. Chairman, I yield back.
    Mr. Rogers. The gentleman yields back.
    The Chair now recognizes the gentlelady from Wyoming, Ms. 
Cheney, for 5 minutes.
    Ms. Cheney. Thank you, Mr. Chairman. Thank you for the 
opportunity for non-subcommittee members to attend and ask 
questions, as well. And thank you to all of our witnesses.
    My first question is for you, Under Secretary Rood.
    We have heard testimony from others in open session about 
limitations that our INF [Intermediate-Range Nuclear Forces] 
Treaty obligations are placing on our research testing of 
hypersonic weapons.
    Could you, to the extent that you can in an open setting, 
address that and, in particular, talk about how an obstacle 
like that can rise to the level where we are getting some 
attention and focus on it, a situation where we now seem to be 
the only nation, anywhere in the world, that is, in fact, bound 
by obligations under the INF Treaty given Russian behavior? If 
that treaty is now also imposing obstacles on our ability to 
develop the next generation of weapons, how does the Department 
plan to respond to that?
    Secretary Rood. Congresswoman, as you mentioned, the INF 
Treaty is between the United States and Russia. During the 
Obama administration, a little over 4 years ago, the 
administration determined the Russians were in violation of 
that agreement. Since that time, those compliance 
determinations have been made and maintained. During the Obama 
administration senior officials, up to and including President 
Obama, and that has continued during the Trump administration, 
with senior officials raising with their Russian colleagues our 
concerns about that and trying to persuade the Russians to come 
into compliance.
    We are now in our fifth year of that effort.
    Nonetheless, we remain a party to the INF Treaty. We are 
not violating that in the United States. As you mentioned, we 
take our obligations very seriously. We are pursuing some 
research and development on capabilities that would provide us 
some offensive capabilities in that regard that do not violate 
the INF Treaty. I think it is something we are going to have to 
evaluate as we go forward in time, but our current policy is to 
still try to persuade them to do that.
    There are times where those restrictions do limit some of 
our capabilities in the United States, and right now we are 
working within the bounds of the treaty, but it is something we 
evaluate going forward.
    Ms. Cheney. Thank you. I just would reiterate extreme 
concern that we are in a situation where we are handcuffing 
ourselves, where we are facing adversaries who are clearly 
making significant progress that we are not making because of 
obligations that only we are now fulfilling.
    General Rand, I have a question for you. Could you just 
give us more details on the timeline on the UH-1N replacement, 
where that stands? Obviously, that is something that we are 
very focused on at F.E. Warren [Air Force Base].
    General Rand. Yes, ma'am, so, right now, the RFP [request 
for proposal] has been released, and it is in source selection. 
We are hopeful that that source selection will come before the 
end of the summer.
    Ms. Cheney. And if it comes before the end of the summer, 
what are we looking at in terms of if we have got an award? I 
think in your testimony you mentioned June of 2018 timeframe 
beyond that.
    General Rand. As far as the actual delivery, this will be 
an off-the-shelf capability. We will start, obviously, 
delivering the first aircraft to our training locations, and 
then we haven't finalized the order, but, obviously, there are 
84 UH-1N replacement helicopters. Over 40 of those will be 
dedicated for Air Force Global Strike, and I am confident to 
say we will get the first 40 before we replace some of the 
other missions that we have.
    Ms. Cheney. Thank you very much. Obviously, the concerns 
about security at the missile fields are preeminent.
    General Rand. Ma'am, and that is a fair point. I do want to 
tell you, though, we have taken excruciating details to 
mitigate what those security risks are without the new 
helicopter, and I will happily talk about what we have done in 
great detail if you would like either offline or in the 
classified session.
    Ms. Cheney. Thank you. I appreciate that, General.
    And I yield back, Mr. Chairman.
    Mr. Rogers. The Chair now recognizes the gentleman from 
Tennessee, Mr. DesJarlais, for 5 minutes.
    Dr. DesJarlais. Thank you, Mr. Chairman. And thank you all 
for being here.
    Administrator Gordon-Hagerty, a couple of Y-12 questions 
and a Watts Bar question for you.
    First, what is the status of NNSA's effort to recapitalize 
and replace uranium capabilities at Y-12?
    Ms. Gordon-Hagerty. Thank you for that question. In fact, 
we are having robust discussions about that right now, and I am 
glad to say that we are on schedule and on path to provide a 
uranium processing facility at a cost no more than $6.5 
billion, and completion by the end of 2025. And we are on that 
path, and we are progressing forward with that effort.
    Dr. DesJarlais. So on time and on budget.
    Ms. Gordon-Hagerty. Absolutely.
    Dr. DesJarlais. Very good. What about plans to recapitalize 
the lithium production at Y-12?
    Ms. Gordon-Hagerty. As with all of our strategic materials, 
we are doing a feasibility study right now on lithium. But with 
all of our strategic materials, we pay very close attention to 
those important materials and how we are going to process and 
produce those products now and in the future.
    Dr. DesJarlais. Okay. And, finally, you touched briefly on 
the increase of tritium production. Is the continued use of TVA 
[Tennessee Valley Authority] in the future?
    Ms. Gordon-Hagerty. Yes, it is, and we are working with 
Watts Bar to continue to produce--to use the TPBARs [tritium-
producing burnable absorber rods] and irradiate them for 
tritium production.
    Dr. DesJarlais. All right. That is all I have. I yield 
back. Thank you.
    Mr. Rogers. Okay. There being no further questions in this 
open session, we will now recess briefly as we walk to the 
secured session.
    [Whereupon, at 10:03 a.m., the subcommittee proceeded in 
closed session.]

      
=======================================================================

                            A P P E N D I X

                             March 22, 2018

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 22, 2018

=======================================================================
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                                [all]
</pre></body></html>
